                   EVALUATION OF
             THE DEPARTMENT OF LABOR’S
               TRAVEL CARD PROGRAM




          OFFICE OF CHIEF FINANCIAL OFFICER

                         AND

 OFFICE OF THE ASSISTANT SECRETARY FOR ADMINISTRATION
                    AND MANAGEMENT

_____________________________________________




                                REPORT NO.: 2E-07-001-0001
                                DATE ISSUED: March 26, 2002
                                          TABLE OF CONTENTS




ACRONYMS AND GLOSSARY ............................................................................................ ii

EXECUTIVE SUMMARY ..................................................................................................... iii

BACKGROUND .......................................................................................................................1

PURPOSE, SCOPE AND METHODOLOGY.........................................................................2

FINDINGS AND RECOMMENDATIONS ............................................................................3

          Finding A – The Travel Card Program Is Not Administered Consistently
                      Throughout DOL........................................................................................ 3

          Finding B – Employees Are Not Receiving Adequate Information About the
                      Travel Card Program ................................................................................ 11

          Finding C - The Department Needs to Provide Guidance on How to Apply DOL
                      Disciplinary Policies to Travel Card Misuse and Delinquency ....................13

APPENDIX – Agency Response ............................................................................................16




                                                           i
                         ACRONYMS AND GLOSSARY


 ACRONYMS

A/OPC        Agency/Organization Program Coordinator

DLMS         Department of Labor Manual Series

DOL          Department of Labor

FAQs         Frequently Asked Questions

GSA          General Services Administration

GTR          Government Transportation Request

OASAM        Office of the Assistant Secretary for Administration and Management

OCFO         Office of Chief Financial Officer

OIG          Office of Inspector General



 GLOSSARY

A/OPC                      Individual designated by the Agency/Organization to
                           manage the travel card program for the
                           Agency/Organization. Generally serves as the focal point
                           for answering questions, coordinating applications, issuing
                           and destroying cards, and reviewing reports.

Citibank                   Bank the Department of Labor chose to service DOL’s
                           travel card program.

CitiDirect                 A web-based program management system provided by
                           Citibank.

Department                 OCFO and OASAM collectively.

Department of Labor        The entire Department of Labor, encompassing all of the
                           offices and agencies carrying out the mission.




                                           ii
                                 EXECUTIVE SUMMARY

The Travel and Transportation Reform Act of 1998 (Public Law 105-264) requires
government employees to use the Government travel charge card (travel card) on official
business. Government employees must use their travel card to pay for official expenses,
such as hotel rooms and airline tickets.

Federal agencies’ roles and responsibilities have changed since the inception of the travel
card program in the late 1980’s. Originally, Federal agencies had very little oversight
responsibility in regard to employees’ card use or payment. The terms of the contract
were strictly between the issuer and the employee. In 1998, Congress passed the Travel
and Transportation Reform Act, which mandated the use of government contractor-issued
cards and gave Federal agencies an oversight role in terms of employee travel card use
and payment

Concern over the government’s travel card program arose at a May 1, 2001,
Congressional hearing before the House Government Reform Committee on Government
Efficiency, Financial Management and Intergovernmental Relations. The General
Services Administration (GSA) testified that as of March 2001, federal employees were
delinquent in paying more than $25 million on their travel card accounts.1 In addition,
the President’s Council on Integrity and Efficiency’s Inspections and Evaluations
Roundtable proposed a government-wide evaluation of travel card use.

This evaluation by the Office of Inspector General focused on the roles of the Office of
Chief Financial Officer (OCFO) and the Office of the Assistant Secretary for
Administration and Management (OASAM) in the Department of Labor’s (DOL’s) travel
card program. We examined these two agencies because OCFO sets Department policy
for the travel card program and most of the Agency/Organization Program Coordinators
(A/OPCs), who administer the program, are OASAM employees. Throughout the report,
we refer to OCFO and OASAM collectively as “the Department” because we believe that
any enhancements or corrective actions to the travel card program will require their
collective effort.

    RESULTS OF EVALUATION

We found that the Department’s policy guidance needs strengthening due to the increased
roles and responsibilities of Federal agencies. Specifically, A/OPCs need additional
procedural guidance; the Department needs to work with program agencies to develop
guidance on how disciplinary policies apply to travel card misuse and delinquency; and
employees need more information on the travel card program. This report contains
recommendations on how the Department can strengthen the DOL travel card program
and decrease travel card misuse and delinquency. Our findings and recommendations are
listed below.
1
 http://www.govexec.com/dailyfed/0501.05020ltl.htm. Government Executive Magazine – 5/02/01
“Federal Workers Misuse of Travel Cards.”


                                               iii
Finding A: The Travel Card Program Is Not Administered Consistently
           Throughout DOL

The Department does not provide adequate guidance to the A/OPCs on how to review
travel card transactions to determine possible misuse. Further, it does not provide
adequate guidance on how to handle possible misuse or delinquency once it is identified.
This lack of guidance results in policies and procedures being established by each
individual A/OPC. Consequently, employees receive disparate treatment based on which
A/OPC is reviewing their account.

Finding B: Employees Are Not Receiving Adequate Information About the Travel
           Card Program

The Department needs to ensure that employees receive adequate information about the
proper use of the travel card. Current practice includes Citibank sending an employee a
cardholder agreement when an employee receives a government travel card. In addition,
the Department bi-annually distributes a memo (Spotlight) explaining proper employee
conduct and responsibilities with regard to travel card use and payment. However, there
is no guarantee that employees are receiving this information and/or understanding their
responsibilities. The Department needs to develop materials such as a simple “Do’s and
Don’ts” list or “Frequently Asked Questions” to give to all employees. In addition, the
Department should cover travel card use in current orientation or ethics classes.
Employees should understand that DOL takes misuse and delinquency seriously and that
there are consequences for inappropriate actions.

Finding C: The Department Needs to Provide Guidance on How to Apply DOL
           Disciplinary Policies to Travel Card Misuse and Delinquency

The Department needs to work with program agencies to develop guidelines on how to
apply the Standards of Ethical Conduct for Employees of the Executive Branch to travel
card misuse and delinquency. In addition to costing DOL money, misuse and
delinquency can be indications of larger employee problems and should not remain
unaddressed. While A/OPCs can cancel cards, this alone is not a deterrent to misuse and
delinquency. Once an A/OPC has identified a problem that needs to be referred to the
employee’s agency, that agency is responsible for taking appropriate corrective action.
The Department needs to educate program agencies and mangers about what options are
available when an employee makes unauthorized use of his travel card and/or is
delinquent.




                                           iv
 RECOMMENDATIONS

We recommend that the Department take the following actions to improve the travel card
program:

   1. Develop clear procedural guidelines for A/OPCs in identifying and handling
      misuse and delinquency. The guidelines should include such items as:
      • A checklist that provides examples of transactions or patterns of transactions
         that indicate misuse;
      • Procedures for notifying employees or agencies of misuse and/or delinquency;
      • Provisions for following-up with employees or agencies;
      • Procedures for canceling cards for repeated misuse; and
      • Instructions for record keeping.

   2. Survey all A/OPCs to learn how they are using Citidirect and what problems they
      are encountering, as well as best practices that can be shared with other A/OPCs.

   3. Provide better information to employees about the travel card program by doing
      such things as:
      • Developing materials such as a simple list of practical “Do’s and Don’ts” or
         FAQs to be distributed to employees;
      • Covering travel card issues with employees during current orientation or
         ethics classes;
      • Informing employees that their transactions are being reviewed; and
      • Advising employees that disciplinary will be taken regarding misuse and
         delinquency.

   4. Work with program agencies to develop guidance on what disciplinary options
      are available if an employee makes unauthorized use of his travel card and/or is
      delinquent.


 DEPARTMENT RESPONSE AND OIG CONCLUSION

In response to the OIG’s official draft report, the Department generally agreed with our
findings and recommendations. As a result of corrective actions planned or already taken
by OCFO and OASAM, we consider all four recommendations to be resolved. The
recommendations will be closed after those corrective actions are completed and
appropriate documentation is provided, as specified in the report. The Department’s
complete response is found in the Appendix.




                                           v
                                       BACKGROUND

This evaluation focused on the roles of the Office of Chief Financial Officer (OCFO) and
the Office of the Assistant Secretary for Administration and Management (OASAM) in
the Department of Labor’s (DOL’s) travel card program. OCFO provides high integrity
financial information, services and products in support of DOL’s goals and develops
DOL-wide travel card policy. In addition, the DOL Coordinator for the travel card
program is located in OCFO. The DOL Coordinator works with Citibank to develop the
DOL task order under the GSA contract and provides training for A/OPCs. OASAM
serves as the principal advisor to the Secretary on the administration and management of
DOL. Most of the Agency/Organization Program Coordinators (A/OPCs), who
administer the travel card program, are OASAM employees.

Concern over the government’s travel card program arose at a May 1, 2001,
Congressional hearing before the House Government Reform Committee on Government
Efficiency, Financial Management and Intergovernmental Relations. The General
Services Administration (GSA) testified that as of March 2001, federal employees were
delinquent in paying more than $25 million on their travel card accounts.1 In addition,
the President’s Council on Integrity and Efficiency’s Inspections and Evaluations
Roundtable proposed a government-wide evaluation of travel card use.

The Travel and Transportation Reform Act of 1998 (Public Law 105-264) requires
government employees to use the Government Travel charge card (travel card) on official
business. Government employees must use their travel card to pay for official expenses,
such as hotel rooms and airline tickets. In 1998, GSA awarded contracts to four banks to
provide travel card services. The GSA contracts set up a point system that allows federal
agencies to receive rebates from the banks based on travel card use. Each federal agency
chooses one of the four banks to provide the services. DOL chose Citibank.

The Department of Labor Manual Series (DLMS) contains DOL-wide policies and
procedures. DLMS – 7, Part 15 covers the DOL’s Travel Management Programs.
DOL’s policy is to issue a travel card to any employee who expects to travel more than
twice a year. The travel cards are individually billed accounts. Employees receive bills
from Citibank at their home and use the money they receive from their travel vouchers to
make payments. Citibank holds employees personally responsible for any unpaid bills.
Payment is due within 25 calendar days of the billing date; however, Citibank does not
charge interest or impose late fees. If a bill is not paid within 45 days, it is considered
past due. At 61 days, Citibank will suspend an employee’s card and at 126 calendar days
Citibank will cancel it. Federal regulations allow Citibank to write-off unpaid amounts at
181 days past due.




1
 http://www.govexec.com/dailyfed/0501.05020ltl.htm. Government Executive Magazine -- 5/02/01
“Federal Workers Misuse of Travel Cards.”
                                                1
                     PURPOSE, SCOPE AND METHODOLOGY


 PURPOSE

The purpose of this evaluation was to determine whether DOL is adhering to regulations,
policies, and procedures regarding the use of travel cards. The evaluation focused on
whether DOL has a system in place to effectively identify and address travel card misuse
and delinquency.

 SCOPE

This evaluation focused on OCFO and OASAM, referred to collectively as “the
Department” throughout the report. Because OCFO sets DOL policy for the travel card
program and most of the A/OPCs, who administer the program, are OASAM employees,
we believe that any enhancements or corrective actions to the travel card program will
require their collective action.

In addition to this report, we are issuing separate reports on the Pension and Welfare
Benefits Administration, the Veterans’ Employment and Training Services, and the
Office of Inspector General.

 METHODOLOGY

To determine whether DOL has adequate internal controls governing travel card use we
looked at the following:

   •   Citibank transaction data from April 1, 2000 to March 31, 2001,
   •   Citibank delinquency data from April 1, 2000 to March 31, 2001,
   •   GSA Smartpay Monthly Performance Reports, which monitor government-wide
       delinquency, from April 2000 to March 2001.

Because Citibank sorts their data by A/OPC and not by DOL agency, we matched the
transaction and delinquency data using account numbers and social security numbers
provided by Citibank, with social security numbers, agency listings and duty stations
provided by OASAM. This match enabled us to sort by agency and look at agency-
specific information. OCFO informed us that they now include agency names with
cardholder information. This enhancement will facilitate any future data analysis.

In addition to examining agency transaction and delinquency data, we interviewed the
DOL Coordinator and all A/OPCs. We also reviewed pertinent federal laws and
regulations as well as DOL and Citibank guidelines and training materials.

We conducted this evaluation in accordance with the Quality Standards for Inspections
published by the President’s Council on Integrity and Efficiency.



                                             2
                      FINDINGS AND RECOMMENDATIONS


 FINDING A – THE TRAVEL CARD PROGRAM IS NOT ADMINISTERED
             CONSISTENTLY THROUGHOUT DOL

The Department does not provide adequate guidance to the A/OPCs on how to review
travel card transactions to determine possible misuse. Further, it does not provide
adequate guidance on how to handle possible misuse or delinquency once it is identified.
This lack of guidance results in policies and procedures being established by each
individual A/OPC. Consequently, employees receive disparate treatment based on which
A/OPC is reviewing their account.

Travel Card Program Responsibilities and Organization

To help manage the day-to-day operation of the program, the Department has set up a
system of A/OPCs. The role of the A/OPC has evolved along with federal agencies’
oversight responsibilities. When the Government-wide travel card program started in the
late 1980’s, employee participation was strictly voluntary. Diner’s Club, who provided
the travel cards, allowed employees to use the card for personal use, as long as employees
paid their bills on time. A/OPCs’ responsibilities were mainly processing applications.
In the 1990’s GSA strongly encouraged the use of travel cards in an effort to eliminate
agencies’ need for cash. Then in 1998, Congress passed the Travel and Transportation
Act, which mandated the use of travel cards for official travel and gave Federal agencies
an oversight role in terms of employee travel card charges and payment. As Congress
has given the agencies an increased role in the travel card program, the responsibilities of
the A/OPC have also increased.

Currently, A/OPCs are responsible for setting up employee travel card accounts and
monitoring account activity and delinquencies. The majority of the A/OPCs are OASAM
employees, who perform the A/OPC responsibilities in addition to their regular duties.
OASAM handles the administrative aspects of the travel card program for most DOL
agencies, except for the Office of Inspector General and the Mine Safety and Health
Administration. Both of these agencies have appointed one of their employees as A/OPC
to handle their entire agency. The Employment Standards Administration, Employment
and Training Administration, Occupational Safety and Health Administration and the
Bureau of Labor Statistics each appoint an A/OPC to handle only their national-office
employees. For regional employees, these agencies rely on a regional OASAM employee
to function as A/OPC for the region. Currently there are a total of 14 A/OPCs who
handle DOL’s travel card program. Eight are OASAM employees. The chart below
shows the organization of the DOL travel card program.




                                             3
As part of DOL’s task order with Citibank, Citibank provides a series of hard-copy
reports each month. Examples include the Account Activity Report, which lists all
activity for the travel card program and the Delinquency Report, which lists all
delinquent account balances. In addition, Citibank provides A/OPCs with access to
CitiDirect, Citibank’s electronic reporting system. CitiDirect allows A/OPCs to access
electronic reports and create ad hoc reports. An A/OPC may also use Citidirect to modify
accounts, and to request and cancel cards.

We obtained a year’s worth of transaction data covering April 2000 to March 2001. We
determined that during that time period, DOL employees charged a total of $35,030,472
on their government travel card accounts. Of that amount, as shown in the chart below,
OASAM A/OPCs reviewed 229,824 transactions. In addition, the chart shows that the
A/OPCs’ workloads vary by region. For instance, Denver and Atlanta reviewed twice as
many transactions as Kansas City and the National Office during the same period.




                               [Intentionally Left Blank]




                                           4
                         Total Number of Transactions by OASAM A/OPC
                                        April 2000 - March 2001
                         45,000
                         40,000
                         35,000
                         30,000
      Number of          25,000
     Transactions        20,000
                         15,000
                         10,000
                          5,000
                              0




                                                    Region


Identifying and Handling Possible Misuse

The only DOL-wide guidance concerning review of travel card use is the DLMS 7. In
covering the A/OPCs responsibilities, the DLMS simply states that the A/OPC shall
review the contractor’s reports to identify employees who have billed personal items to
the card. The Department needs to develop clear procedural guidelines to help A/OPCs
combat misuse.

The A/OPCs receive several monthly reports from Citibank. One report lists each travel
card transaction for the employees the A/OPC services. The report lists the employee’s
name, amount of the transaction, name of seller, Merchant Commercial Code, date and
place of purchase. The A/OPC reviews the report looking for signs of possible misuse.

A/OPCs varied greatly in how they identified possible misuse. For example, one A/OPC
looks for improper store names, such as department stores, and notifies the employee and
the employee’s supervisor if the charge is over $100. While another A/OPC, in addition
to looking for improper store names, looks for use in or around the employee’s duty
station and notifies the agency regardless of the amount. Most A/OPCs stated that
identifying possible misuse is highly subjective.




                                           5
While examining the data, we identified the following examples of possible misuse.

   •   From August to December, an employee charged $12,090 to her government
       travel card. She used her travel card at Automatic Teller Machines, department
       stores, restaurants and grocery stores, among other places. She did not have any
       travel-related expenses. The employee made payments on her bill until
       November. Citibank suspended her card and in January she set up a payment plan
       with the bank’s collection department. Since the A/OPC did not keep records of
       employees she cited for misuse, we do not know if the A/OPC identified this
       particular case.

   •   An employee spent $1,144 at automatic fuel dispensers and service stations near
       his duty station. He did not incur any other travel-related expenses. The A/OPC
       did not notify the employee or the agency until the employee spent $179 at a car
       dealership. By this time, the employee was already $770 past due on his
       government travel card.

A/OPCs also varied greatly in how they handled possible misuse once they identified it.
Only three of the eight OASAM A/OPCs were able to provide us with the names of the
employees they had flagged for possible misuse and none of the A/OPCs followed up
with the employees or the agencies. Several of the A/OPCs we talked to outside of
OASAM contact the employee either by e-mail or letter and ask the employee to explain
the questionable transaction by a certain date. The employee then has a chance to explain
the questionable charges. Sometimes an employee doesn’t understand the definition of
“official travel.” For example, one A/OPC had an employee who charged a book on her
travel card because she needed something to read on the plane while traveling on official
business.

A/OPCs have the discretion to cancel the travel cards for repeated misuse. Several of the
A/OPCs that we talked to outside of OASAM will cancel travel cards because of repeated
misuse. Several OASAM A/OPCs noted that misuse and delinquency usually go
together. Citibank will cancel a card due to delinquency, which effectively stops the
misuse. However, the Department does not currently have procedures addressing
canceling the cards of employees who misuse their card, yet continue to pay their travel
card bill on time.

The Department needs to develop clear procedural guidelines to help A/OPCs identify
and handle possible misuse. Instead of A/OPCs using a subjective standard, the
Department should create an objective standard, such as a checklist, to ensure that all
employees are treated equally. The checklist should contain the types of transactions or
patterns of transactions that warrant contacting an employee or an employee’s agency, or
checking an employee’s travel voucher to ensure the expenses were incurred on official
travel.

Once possible misuse is identified, the A/OPCs need to be given instructions on what to
do next. Currently, one OASAM A/OPC sends a letter to the employee and the
employee’s supervisor, while another forwards a list of names to the Regional
Administrator. None of the OASAM A/OPCs followed up with the employee or the

                                           6
agency. Either the agency or the employee needs to contact the A/OPC to explain the
transaction(s) and let the A/OPC know that the situation has been addressed. The
Department also needs to establish procedures for canceling cards after repeated misuse.

Additionally, A/OPCs should be encouraged to use CitiDirect, which can provide
valuable information. Few of the A/OPCs are utilizing CitiDirect to the extent that they
could be. The Department should survey all A/OPCs to find out how they are using
CitiDirect and what are the barriers to A/OPCs using it more. For example, one A/OPC
noted that she had a hard time reviewing monthly transaction data because of the font.
Another noted that it was hard to see an entire transaction on the screen. The survey
would also help the Department identify best practices that could be shared with other
A/OPCs. The Department could serve as a clearinghouse for best practices and try to
work with Citibank to make CitiDirect more user friendly.

Handling Delinquency

A/OPCs do not have the same problems identifying delinquencies. Citibank provides
monthly delinquency reports that list the amount of the delinquency and how long the
payment has been past due. However, as with possible misuse, the Department needs to
develop clear instructions on how A/OPCs should handle employee delinquency.

Under GSA’s Master Contract with Citibank, an account is past due if it is not paid
within 45 days of the closing date. At 61 days Citibank suspends the account and the
employee is unable to use the card until the principal amount is paid. Citibank will
cancel a card if an employee is 126 days past due or has a card suspended two times in
twelve months.

Based on information provided by GSA, we compared DOL’s delinquency rate to other
cabinet-level agencies. GSA tracks each agency’s monthly outstanding balance and the
percentage of that balance that is 61+ days past due. As the chart below illustrates, seven
of the cabinet-level agencies had lower delinquency rates than DOL.




                                [Intentionally Left Blank]




                                             7
                          Percentage of Outstanding Total Travel Card Balance
                             61+ Days Delinquent -- Agency Yearly Average
                                         April 2000 - March 2001
                               20
                               18
                               16
                               14
                               12
              Percentage       10
                                8
                                6
                                4
                                2
                                0




After 180 days, federal regulations allow Citibank to write-off unpaid amounts as credit
losses. To encourage federal agencies to address employee travel card delinquency, on
October 24, 2001, GSA amended the Citibank contract to allow Citibank to deduct from
the net charge volume the total amount of credit losses. DOL’s SmartPay Refunds are
based on DOL’s net charge volume; thus, an employee failing to pay their travel card bill
costs DOL rebate money. Cumulative write-offs from the inception of the Citibank
contract (1998) until the end of March 2001 totaled $362,048.∗

All the OASAM A/OPCs inform the agencies once an employee is 61 days delinquent.
One A/OPC sends a letter to the employee and the supervisor. Regional A/OPCs forward
the names to each agency’s Administrative Officer for that region. As with possible
misuse, none of the A/OPCs follow-up with the agency or the employee.

Conclusion

A/OPCs do not have adequate guidance on how to handle employee travel card misuse
and delinquency. This lack of guidance results in employees being treated differently
depending on which A/OPC monitors their account.

To ensure that all employees are treated equally, the Department needs to develop clear
procedural guidelines for A/OPCs. The guidelines should include such items as a
checklist that provides examples of transactions or patterns of transactions that indicate
possible misuse. The Department should also provide A/OPCs with procedures for
handling the possible misuse and delinquency once it is identified. The procedures
should address who should be notified of the possible misuse and/or delinquency and
provide for follow-up with the employee or agency. A/OPCs also need to keep a record
of employees who have been cited for misuse and delinquency. Records will be


∗
    This amount does not include any payments Citibank may have collected after 180 days.
                                                     8
particularly important in cases of misuse, because the Department should establish
procedures for canceling cards for repeated misuse.

Finally, A/OPCs should be encouraged to take advantage of all the tools at their disposal,
including access to travel vouchers and CitiDirect, as well as the ability to cancel cards.
Stricter monitoring of the travel card accounts should result in a decrease in misuse and
delinquency.

RECOMMENDATIONS

We recommend that the Department:

1. Develop clear procedural guidelines for A/OPCs in identifying and handling possible
   misuse and delinquency. The guidelines should include such items as:

       •   A checklist that provides examples of transactions or patterns of transactions
           that indicate possible misuse;
       •   Procedures for notifying employees or agencies of possible misuse and/or
           delinquency;
       •   Provisions for following-up with employees or agencies;
       •   Procedures for canceling cards for repeated misuse; and
       •   Instructions for record keeping.

2. Survey all A/OPCs to learn how they are using CitiDirect and what problems they are
   encountering, as well as best practices that can be shared with other A/OPCs.


The Department’s Response to Recommendations

1.     “OCFO and OASAM concur with the recommendation. The reevaluation of the
       program infrastructure will strengthen A/OPC effectiveness by ensuring these
       individuals possess the proper skill sets to perform their card oversight
       responsibilities. OCFO will also enhance existing A/OPC policy and procedural
       guides to address the above areas in accordance with new oversight
       requirements. OASAM will designate a regional Servicing Finance Officer to
       assist the DOL Travel Card Program Coordinator with documenting related
       operating procedures. The target completion date for policy and procedural
       updates is July 1, 2002.”

2.     “OCFO and OASAM concur with the recommendation due to the new oversight
       requirements. Reexamining the current infrastructure will impact this
       recommendation. OCFO and OASAM will reevaluate the current A/OPC
       infrastructure to determine if A/OPCs possess the technical skills necessary to
       utilize CitiDirect and analyze financial management reports. OASAM will
       determine what, if any, staffing adjustments can be made.”

       “OCFO conducted an A/OPC survey in February 2002. The prominent response
       among the A/OPCs is that CitiDirect is laborious, time consuming, and detracts

                                             9
       from more critical mission-related work priorities. Other responses included
       printer limitations and the need for additional training. OCFO and OASAM will
       continue to encourage the use of CitiDirect by coordinating A/OPC training
       through Citibank, lending technical support, and demonstrating ways in which
       CitiDirect can enhance A/OPC effectiveness.”

OIG’s Conclusion

We concur with the Department’s proposed corrective actions and consider
recommendations 1 and 2 resolved. These recommendations will be closed pending
receipt of a copy of the policy and procedural updates. Please provide the written
documentation by July 31, 2002.




                                          10
 FINDING B – EMPLOYEES ARE NOT RECEIVING ADEQUATE
             INFORMATION ABOUT THE TRAVEL CARD PROGRAM

The Department needs to ensure that employees receive information about the proper use
of the travel card. Current practice includes Citibank sending an employee a cardholder
agreement when an employee receives a government travel card. In addition, the
Department bi-annually distributes a memo (Spotlight) explaining proper employee
conduct and responsibilities with regard to travel card use and payment. However, there
is no guarantee that employees are receiving this information and/or understanding their
responsibilities. The Department needs to distribute more specific travel card
information and consider alternative methods of delivery.

According to our interviews with A/OPCs, the amount of additional information an
employee receives depends on the region. In many cases, the A/OPC does not interact
with the employee requesting the travel card. He may simply get a stack of applications
to review and forward to Citibank.

While it seems unlikely that delinquency or all cases of misuse can be attributed to
ignorance, better training could ensure that lack of knowledge is not an issue. For
example, according to OCFO, it is not appropriate for an employee to use his travel card
if the employee loses his luggage while traveling. However, an A/OPC that we
interviewed believed that replacing items lost in your luggage was an allowable use. The
Department needs to develop materials such as a simple “Do’s and Don’ts” list or
“Frequently Asked Questions” (FAQs) to give to all employees. The list should be as
specific as possible. Employees also need to know that their transactions are being
reviewed and what actions will be taken if they misuse their cards or are delinquent.

This information should not only be given to new employees, but existing cardholders as
well. The Department should cover travel card use in current orientation or ethics
classes. Employees should understand that DOL takes misuse and delinquency seriously
and that there are consequences for inappropriate actions.

RECOMMENDATION

We recommend that the Department:

3. Provide more information to employees about the travel card program by doing such
   things as:
       • Developing materials such as a simple list of practical “Do’s and Don’ts” or
           FAQs to be distributed to employees;
       • Covering travel card issues with employees during current orientation or
           ethics classes;
       • Informing employees that their transactions are being reviewed; and
       • Advising employees that disciplinary action will be taken regarding misuse
           and delinquency.



                                           11
The Department’s Response to Recommendation

3.     “OCFO and OASAM concur with the recommendation and have recognized the
       need for supplemental program information. To that end, OCFO has conducted
       training classes for employees that specifically deal with the travel card and has
       recently developed a temporary duty travel (TDY) web-based training course.
       This course includes a travel module that addresses cardholder conduct and
       responsibility, and it advises employees of transaction review and disciplinary
       actions for inappropriate card use and delinquency. The course will be available
       24 hours a day via LaborNet. OCFO is currently developing Departmental
       rollout plan for the TDY web-based training course.”

       “The web-based course will be supplemented with an employee desk reference
       guide that will refer employees to the new TDY web-based training course. The
       guide will also be available on LaborNet, and OASAM will package the guide
       with other routine materials distributed during the new employee orientation
       classes. OASAM will verbally provide an overview of the guide and the TDY
       web-based training to new employees during orientation. The target completion
       date for development of the desk guide is July 1, 2002.”

OIG’s Conclusion

We concur with the Department’s proposed corrective actions and consider the
recommendation resolved. A web-based course accompanied by a desk guide is an
excellent way to provide information about the travel card program to DOL employees.
This recommendation will be closed pending receipt of the rollout plan for the TDY web-
based course and a copy of the desk guide. Please provide the requested written
documentation by July 31, 2002.




                                           12
FINDING C – THE DEPARTMENT NEEDS TO PROVIDE GUIDANCE ON
            HOW TO APPLY DOL DISCIPLINARY POLICIES TO
            TRAVEL CARD MISUSE AND DELINQUENCY

The Department needs to work with program agencies to develop guidelines on how to
apply the Standards of Ethical Conduct for Employees of the Executive Branch to travel
card misuse and delinquency. In addition to costing DOL money, misuse and
delinquency can be indications of larger employee problems and should not remain
unaddressed. While A/OPCs can cancel cards, this alone is not a deterrent to misuse and
delinquency. Once an A/OPC has identified a problem that needs to be referred to the
employee’s agency, that agency is responsible for taking appropriate corrective action.
The Department needs to better educate agencies on how to handle an employee’s travel
card misuse and/or delinquency.

Card cancellation alone does not necessarily affect an employee’s ability to travel.
Several of the A/OPCs we interviewed noted that some employees weren’t concerned
about misusing or not paying their cards because the only repercussion was cancellation
of their card, which is not viewed as a deterrent. If an employee’s card is cancelled, the
employee may use a Government Transportation Request (GTR) to pay for airline tickets
or other types of transportation. A GTR is a centralized account that is directly billed to
the agency for payment. In extreme cases of hardship, an employee might be eligible for
a cash advance.

The Standards of Ethical Conduct for Employees of the Executive Branch 5 CFR
2625.704 (a) states, “Standard. An employee has a duty to protect and conserve
Government property and shall not use such property, or allow its use, for other than
authorized purposes.” The Department needs to educate program agencies and managers
about what options are available when an employee makes unauthorized use of his travel
card and/or is delinquent.

The Department needs to work with program agencies so they can better understand and
utilize disciplinary guidance to address repeated misuse and delinquency. The guidance
should include under what circumstances an employee’s conduct should be referred to the
Office of Inspector General. Once an A/OPC has identified serious or continual misuse
or delinquency and informed the employee’s agency, the agency needs to have guidelines
to properly address circumstances as they arise.




                                            13
In this regard, GSA has developed suggested guidance for agencies in the GSA
SmartPay A/OPC Survival Guide. We have provided this example strictly for
informational purposes. The Department should shape its guidance to meet its specific
needs.

TYPE OF DELINQUENCY OR                PENALTY FOR FIRST                PENALTY FOR
         MISCONDUCT                         OFFENSE                SUBSEQUENT OFFENSES
a. Failure to act on a notice of    Verbal counseling to written        Reprimand.
delinquency within 15 days of                warning.
receipt.
b. Notice of delinquency (debt           Written warning.               Reprimand.
more than 60 days delinquent)
without proof of payment or an
approved repayment
agreement.
c. Unauthorized use of card        Suspension 5 to 10 workdays.          Removal.
for other than official purposes
(includes purchases and ATM
withdrawals less than
$500.00).
d. Unauthorized use of card in     Suspension of 15 workdays to          Removal.
excess of $500.00.                          removal.
e. Authorizing another to use               Removal.                     Removal.
the Cardholder’s card for an
unauthorized
purchase/withdrawal.


RECOMMENDATION

We recommend that the Department:

4. Work with agencies to develop guidance on what disciplinary options
   are available if an employee makes unauthorized use of his travel card and/or is
   delinquent.


The Department’s Response to Recommendation

4.      “The Department’s overall discipline policy is sufficiently broad to deal with all
        matters of employee misconduct, including unauthorized use of the travel card.
        Based on experience, OASAM continues to believe that decisions about discipline
        are best made on a case-by-case basis with technical guidance provided by
        OASAM’s Human Resources Center and agency employee relations staff, as
        appropriate. This approach has yielded a proper measure of consistency and
        flexibility for management.”




                                                14
OIG’s Conclusion

We agree that the Department’s overall discipline policy is sufficiently broad to deal with
unauthorized use of the travel card; however, DOL managers lack information about how
DOL’s discipline policy can be applied to employees’ unauthorized use of the travel card
and travel card delinquency. We consider this recommendation resolved and will close it
pending receipt of the Department’s action plan and materials for educating managers
about what appropriate corrective action should be taken when an employee repeatedly
misuses their travel card or is delinquent making payments. Please provide the requested
written documentation by June 30, 2002.




                                            15
   APPENDIX

AGENCY RESPONSE




     16
